No. 19-921

 

IN THE

Supreme Court of the United States

JOHN M. Paz,

Petitioner,
v.

DIRECTOR, NEW JERSEY DIVISION OF TAXATION,
Respondent.

On a Petition for Writ of Certiorari to the
Superior Court of New Jersey,
Appellate Division

BRIEF OF AMICUS CURIAE
TAX EXECUTIVES INSTITUTE
IN SUPPORT OF THE PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,115 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 24, 2020.

 

Wilson-Epes Printing Co., Inc.
